APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (March 25, 2021) ....................... 1a
District Court of Tulsa County, State of Oklahoma,
Findings of Fact and Conclusions of Law (Signed
December 8, 2020, Filed December 9, 2020) ............. 12a
Muscogee (Creek) Nation Enrollment
Verification (September 2, 2020) ..................... 17a
Stipulations
(December 10, 2020) ......................................... 19a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 21a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(MARCH 25, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
ERIK SHERNEY WILLIAMS,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2016-937
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS, Judge.,
Robert L. HUDSON, Judge.
OPINION
ROWLAND, VICE PRESIDING JUDGE:
Appellant Erik Sherney Williams was tried by jury
and convicted of First Degree Murder, in violation of
21 O.S.Supp.2012, § 701.7, in the District Court of
Tulsa County, Case No. CF-2014-4936. In accordance
with the jury’s recommendation, the Honorable James

App.2a
M. Caputo sentenced Williams to life in prison without
the possibility of parole.
Williams raises the following errors on appeal:

(1) The district court was without jurisdiction
over his case because the State did not
initiate prosecution within the time frame
mandated by the Interstate Agreement on
Detainers Act;

(2) Ineffective assistance of counsel deprived
him of a fair trial; and
(3) The district court lacked jurisdiction over his
case because the victim was an “Indian” and
the crime occurred in “Indian Country.”
This appeal turns on whether the victim was an
Indian as defined by federal law, and whether the
alleged crime was committed within Indian country
as that term is defined by federal law. Because the
answer to both questions is yes, federal law grants
exclusive criminal jurisdiction to the federal government. Because we find relief is required on Williams’s
jurisdictional challenge in Proposition 3, his other
claims are moot.
1. Controlling Law: McGirt v. Oklahoma
In McGirt v. Oklahoma, 591 U.S. ___, 140 S. Ct.
2452 (2020), the Supreme Court held that land set
aside for the Muscogee-Creek Nation in the 1800’s was
intended by Congress to be an Indian reservation,
and that this reservation remains in existence today
for purposes of federal criminal law because Congress has never explicitly disestablished it.

App.3a
2. Jurisdiction
Federal and tribal governments, not the State of
Oklahoma, have jurisdiction to prosecute crimes
committed by or against Indians on the Muscogee
Creek Reservation. 18 U.S.C. § 1152, 1153; McGirt,
140 S. Ct. at 2479-80. The charge of first degree murder
filed against Williams in this case fits squarely within
the crimes subject to exclusive federal jurisdiction. See
State v. Klindt, 1989 OK CR 75, ¶ 3, 782 P.2d 401, 403
(“[T]he State of Oklahoma does not have jurisdiction
over crimes committed by or against an Indian in
Indian Country.”)
3. Two Questions Upon Remand
After the McGirt decision was mandated, this
Court, on August 19, 2020, remanded this case to the
District Court of Tulsa County for an evidentiary
hearing. We directed the District Court to make findings of fact and conclusions of law on two issues: (a)
the victim’s status as an Indian; and (b) whether the
crime occurred in Indian Country, namely within the
boundaries of the Muscogee Creek Nation Reservation. Our Order provided that, if the parties agreed
as to what the evidence would show with regard to
the questions presented, the parties could enter into
a written stipulation setting forth those facts, and no
hearing would be necessary.
On October 15, 2020, the parties appeared for
an evidentiary hearing before the Honorable Tracy
Priddy, District Judge. The parties entered a joint
stipulation, agreeing that (1) the victim has some
Indian blood (17/64 degree Indian blood); (2) she was
a recognized member of the Muscogee Creek Nation
on the date of her death; (3) the Muscogee Creek Nation

App.4a
is a federally recognized tribe; and (4) the charged
crime occurred within the boundaries of the Muscogee
Creek Nation Reservation. The district court accepted
the parties’ stipulation.
The district court issued written Findings of Fact
and Conclusions of Law on December 8, 2020. Judge
Priddy correctly concluded, based on the joint stipulation and the supporting documentation submitted,
that on the date of the charged crimes, the victim
was an Indian for purposes of federal law. As to the
second question on remand, whether the crimes were
committed in Indian country, Judge Priddy correctly
concluded the crime occurred on the Muscogee Creek
Nation Reservation which, based on McGirt, is Indian
country under federal law.
The State raised the issue of concurrent jurisdiction below. The State briefed and argued that
Oklahoma and the federal government have concurrent
jurisdiction over all crimes committed by non-Indians
in Indian country, including Williams’s case. Williams
moved to strike the State’s brief and the parties
presented brief argument on the issue. The district
court refused to strike the State’s brief, but made no
ruling on the issue of concurrent jurisdiction, finding
the issue was beyond the scope of the remand order.
The parties filed supplemental briefs in this Court
following remand, addressing concurrent jurisdiction.
We rejected the State’s same argument regarding
concurrent jurisdiction in Bosse v. State, 2021 OK CR
3, ¶¶ 23-28, ___ P.3d ___.
For these reasons, we hold, under the analysis
in McGirt, that the District Court of Tulsa County
did not have jurisdiction to try Williams for murder.
Accordingly, we grant Proposition 3.

App.5a
DECISION
The Judgment and Sentence of the district court
is VACATED and this matter is REMANDED WITH
INSTRUCTIONS TO DISMISS. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch. 18, App. (2021), the MANDATE is
ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT
OF TULSA COUNTY, THE HONORABLE
TRACY PRIDDY, DISTRICT JUDGE
APPEARANCES AT TRIAL
Kevin D. Adams
Attorney at Law
212 West 12th St.
Tulsa, OK 74119
Counsel for Defendant
Erik Grayless
Becky Johnson
Asst. District Attorneys
Tulsa County Courthous
500 S. Denver, Rm. 900
Tulsa, OK 74103
Counsel for State
APPEARANCES ON APPEAL & EVIDENTIARY HEARING
James L. Hankins
Mon Abri Business Center
2524 N. Broadway
Edmond, OK 73034
Counsel for Appellant

App.6a
Mike Hunter
Attorney General of Oklahoma
Thomas Lee Tucker
Randall Young
Jennifer L. Crabb
Assistant Attorneys General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
Opinion by: Rowland, V.P.J.
Kuehn, P.J.: Concur
Lumpkin, J.: Concur in Result
Lewis, J.: Specially Concur
Hudson, J.: Specially Concur

App.7a
LUMPKIN, JUDGE
CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U. S.
Supreme Court in McGirt v. Oklahoma, ___ U.S. ___,
140 S. Ct. 2452 (2020), I do so reluctantly. Upon the
first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in search
of an opinion to support it. Then upon reading the
dissents by Chief Justice Roberts and Justice Thomas
I was forced to conclude the Majority had totally failed
to follow the Court’s own precedents, but had cherry
picked statutes and treaties, without giving historical
context to them. The Majority then proceeded to do
what an average citizen who had been fully informed
of the law and facts as set out in the dissents would
view as an exercise of raw judicial power to reach a
decision which contravened not only the history leading
to the disestablishment of the Indian reservations in
Oklahoma, but also willfully disregarded and failed
to apply the Court’s own precedents to the issue at
hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required
me to resist unlawful orders. Chief Justice Roberts’
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.8a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.

1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act (IRA)
in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white section with whom they would trade
and associate. I just cannot get through my mind
how this bill can possibly be made to operate in a
State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.9a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate that
I fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with
the Indian reservations. Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907,
all parties accepted the fact that Indian reservations
in the state had been disestablished and no longer
existed. I take this position to adhere to my oath as a
judge and lawyer without any disrespect to our Federal-State structure. I simply believe that when reasonable minds differ they must both be reviewing the
totality of the law and facts.

App.10a
LEWIS, JUDGE, SPECIALLY CONCURRING
I write separately to note that I am bound by my
special writings in Bosse v. State, 2021 OK CR 3, ___
P.3d ___ and Hogner v. State, 2021 OK CR 4, ___
P.3d ___. Following the precedent of McGirt v.
Oklahoma, 140 S. Ct. 2452 (2020), Oklahoma has no
jurisdiction over persons who commit crimes against
Indians in Indian Country. This crime occurred within
the historical boundaries of the Muscogee (Creek)
Nation Reservation and that Reservation has not been
expressly disestablished by the United States Congress. Additionally, the crime occurred against Indian
victims, thus the jurisdiction is governed by the Major
Crimes Act found in the United States Code.
Oklahoma, therefore, has no jurisdiction, concurrent or otherwise, over the appellant in this case.
Thus, I concur that this case must be reversed and
remanded with instructions to dismiss. Jurisdiction is
in the hands of the United States Government.

App.11a
HUDSON, JUDGE, SPECIALLY CONCURRING
Today’s decision dismisses a first degree murder
conviction from the District Court of Tulsa County
based on the Supreme Court’s decision in McGirt v.
Oklahoma, 140 S. Ct. 2452 (2020). This decision is
unquestionably correct as a matter of stare decisis
based on the Indian status of the victim and the occurrence of this crime on the Creek Reservation. Under
McGirt, the State has no jurisdiction to prosecute
Appellant for the murder in this case. Instead, Appellant must be prosecuted in federal court. I therefore as
a matter of stare decisis fully concur in today’s decision.
Further, I maintain my previously expressed views on
the significance of McGirt, its far-reaching impact on
the criminal justice system in Oklahoma and the need
for a practical solution by Congress. See Bosse v. State,
2021 OK CR 3, ___ P.3d ___ (Hudson, J., Concur in
Results); Hogner v. State, 2021 OK CR 4, ___ P.3d
___ (Hudson, J., Specially Concurs); and Krafft v. State,
No. F-2018-340 (Okl. Cr., Feb. 25, 2021) (Hudson, J.,
Specially Concurs) (unpublished).

App.12a
DISTRICT COURT OF TULSA COUNTY,
STATE OF OKLAHOMA, FINDINGS OF
FACT AND CONCLUSIONS OF LAW
(SIGNED DECEMBER 8, 2020,
FILED DECEMBER 9, 2020)
IN THE DISTRICT COURT OF
TULSA COUNTY, STATE OF OKLAHOMA
________________________
ERIK SHERNEY WILLIAMS,
Defendant/Appellant,
v.
STATE OF OKLAHOMA,
Plaintiff/Appellee.
________________________
Tulsa County District Court Case No. CF-2014-4936
Court of Criminal Appeals Case No. F-2016-937
Before: Tracy PRIDDY, District Court Judge.
This matter came on for hearing before the Court
on October 15, 2020, in accordance with the remand
order of the Oklahoma Court of Criminal Appeals
issued on August 19, 2020. The State appeared by
and through Assistant Attorney General Randall
Young. Defendant, who is incarcerated, appeared by
and through James Hankins. The Court makes its
findings based upon the stipulations and evidence
presented by the parties, review of the pleadings and

App.13a
attachments in this Court and the Oklahoma Court
of Criminal Appeals, and the briefs and argument of
counsel.
In his Supplemental Brief, filed on September
27, 2017, pursuant to authorization by this Court,
and his motion to supplement the record on appeal
and for evidentiary hearing on his claim of lack of
jurisdiction of the trial court filed on July 14, 2020,
Appellant claims the District Court lacked jurisdiction
to try him as while he is not Indian, his victim,
Christian Shockley, was a citizen of the Muscogee
(Creek) Nation and the crime occurred within the
boundaries of the [Muscogee] (Creek) Nation. This
claim raises two separate questions: (a) the Indian
status of his victim, Christian Shockley, and (b)
whether the crime occurred in Indian Country.
In the August 19, 2020, Order Remanding for
Evidentiary Hearing, the Oklahoma Court of Criminal
Appeals directed this Court as follows:
The District Court shall address only the
following issues:
First, his victim, Christian Shockley’s, status
as an Indian. The District Court must determine whether (1) Christian Shockley has
some Indian blood, and (2) was recognized
as an Indian by a tribe or the federal government.
Second, whether the crime occurred within
the boundaries of the Creek Nation.1

1 Order Remanding for Evidentiary Hearing at 4

App.14a
The State filed State’s Brief on Concurrent Jurisdiction on October 1, 2020. The Defendant/Appellant
filed his Response to State’s Brief on Concurrent
Jurisdiction and Motion to Strike on October 8, 2020.
Although Defendant/Appellant requested a ruling from
this Court on his Motion to Strike the State’s brief
from the record and arguments from counsel were
heard and made part of the record, the Court declined
to issue a ruling at the hearing. The Court reserved
the right to address it in the Findings of Fact and
Conclusions of law. Following careful review of the
Order Remanding, this Court declines to issue any
rulings or make findings of fact or conclusions of law
regarding Defendant/Appellant’s Motion to Strike the
State’s brief on the issue of concurrent jurisdiction.
The Court’s jurisdiction is limited and specifically set
out by the order. The matter of whether the State’s
argument in favor of concurrent jurisdiction should
be stricken from consideration, should be decided by
the Oklahoma Court of Criminal Appeals. The pleadings filed by the parties on the issue of concurrent
jurisdiction are preserved for ruling on the Motion to
Strike and consideration by the Oklahoma Court of
Criminal Appeals.
Regarding facts supporting the issues to be
address by this Court, the parties stipulated and
agreed as follows:2
1.

As to location of the crime:
a.

The crime in this case occurred at 7631
East 21st Street in Tulsa, Oklahoma.
This address is within the boundaries

2 Exhibit 2, Stipulations, not filed with the District Court.

App.15a
of the Muscogee (Creek) Nation’s Reservation.
2.

As to the status of Christian Shockley, the
parties hereby stipulate and agree as follows:
a.

Ms. Shockley had 17/64 degree Creek
blood.

b.

Ms. Shockley was, at the time of her
death, a member of the Muscogee (Creek)
Nation.

c.

The Muscogee (Creek) Nation is an
Indian Tribal Entity recognized by the
federal government.

Additionally, Defendant/Appellant moved to admit
as evidence, Exhibit 1. The exhibit was admitted into
evidence without objection from the State.
I. Christian Shockley’s Status as an Indian.
The State of Oklahoma and Defendant/Appellant
have stipulated to Christian Shockley’s Indian status
by virtue of her tribal membership with the Muscogee
(Creek) Nation and proof of her blood quantum of
17/64 Creek. This is further supported by Exhibit 1.
Based upon the stipulations and evidence presented,
the Court specifically finds Christian Shockley, the
victim, (1) has some Indian blood, and (2) was recognized as an Indian by a tribe or the federal government. The victim, Christian Shockley is an Indian.
II. Whether the Crime
Occurred in the Creek Nation.
The State of Oklahoma and Defendant/Appellant
stipulated that the crime was committed at a location
identified to be within the boundaries of the Muscogee

App.16a
(Creek) Nation. These boundaries were established
through a series of treaties between the Muscogee
(Creek) Nation and the United States Government,
and are explicitly recognized as a reservation defined
by 18 U.S.C. § 1151(a). Based upon the Supreme
Court’s ruling in McGirt v. Oklahoma, 140 S. Ct.
2452, 207 L.Ed.2d 985 (2020), this Court concludes
that the crime occurred on the Creek Reservation which
is Indian Country as defined by 18 U.S.C. § 1151(a).
WHEREFORE, this Court finds that the victim
in this case, Christian Shockley was an Indian and
that the crime for which Defendant/Appellant was
convicted occurred in Indian Country for purposes of
the Major Crimes Act, 18 U.S.C. § 1153.
IT IS SO ORDERED this 8th day of December,
2020.
/s/ Tracy Priddy
District Court Judge

App.17a
MUSCOGEE (CREEK)
NATION ENROLLMENT VERIFICATION
(SEPTEMBER 2, 2020)

MUSCOGEE (CREEK) NATION
ENROLLMENT VERIFICATION
Re:
Name: Christian Colette Shockley
Address: 512 W. Tucson
Bixby OK 74008
Birthdate: 10/9/1989
Enrollment Date: August 16, 1995
Roll Number: 52212
Degree of Creek Blood: 17/64
I hereby certify that Christian Colette Shockley,
DOB: 10/9/1989 is enrolled with the Muscogee (Creek)
Nation. Enrollment Date: 8/16/1995 Roll Number:
52212, Degree of Creek Blood: 17/64.
I attest and certify that the above information is
a correct compilation of official records of the Muscogee
(Creek) Nation filed and recorded with the Muscogee
(Creek) Nation Citizenship Office, the public office
responsible for keeping records of enrolled citizens,
and that I am an authorized custodian of said records.

App.18a
Executed this 2nd day of September, 2020.
/s/ Name not legible
Name of Officer
Muscogee (Creek) Nation
Citizenship Office

App.19a
STIPULATIONS
(DECEMBER 10, 2020)
IN THE DISTRICT COURT OF TULSA
COUNTY, STATE OF OKLAHOMA
________________________
ERIK SHERNEY WILLIAMS,
Defendant/Appellant,
v.
THE STATE OF OKLAHOMA,
Plaintiff/Appellee.
________________________
Case No. CF-2014-4936, F-2016-937
STIPULATIONS
In response to the questions this Court has been
directed to answer by the Court of Criminal Appeals,
the parties have reached the following stipulations:
1.

As to the location of the crime, the parties
hereby stipulate and agree as follows:
a.

2.

The crime in this case occurred at 7631
East 21st Street in Tulsa, Oklahoma.
This address is within the boundaries
of the Muscogee (Creek) Nation’s Reservation.

As to the status of Christian Shockley, the
parties hereby stipulate and agree as follows:

App.20a
a.

Ms. Shockley had 17/64 degree Creek
blood.

b.

Ms. Shockley was, at the time of her
death, a member of the Muscogee (Creek)
Nation.

c.

The Muscogee (Creek) Nation is an
Indian Tribal Entity recognized by the
federal government.
Respectfully submitted,
/s/ James L. Hankins
Counsel for Appellant
/s/ Randall Young
Assistant Attorney General
/s/ Erik Greyless
Assistant District Attorney
Counsel for Appellee

App.21a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
ERIK SHERNEY WILLIAMS,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2016-937
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge.,
Robert L. HUDSON, Judge.,
Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Appellant Erik Sherney Williams was tried by jury
and convicted of First Degree Murder, in violation of
21 O.S.Supp.2012, § 701.7, in the District Court of
Tulsa County, Case No. CF-2014-4936. In accordance
with the jury’s recommendation, the Honorable James

App.22a
M. Caputo sentenced Williams to life in prison without
the possibility of parole. Williams appeals from this
conviction and sentence.
In his Supplemental Brief, filed on September
27, 2017, pursuant to authorization by this Court,
and his motion to supplement the record on appeal
and for evidentiary hearing on his claim of lack of
jurisdiction of the trial court filed on July 14, 2020,
Williams claims the District Court lacked jurisdiction
to try him. Williams argues that while he is not Indian,
his victim, Christian Shockley, was a citizen of the
Muskogee (Creek) Nation and the crime occurred
within the boundaries of the Creek Reservation.
Williams, in his direct appeal, relied on jurisdictional
issues addressed in Murphy v. Royal, 875 F.3d 896
(10th Cir. 2017), which was affirmed by the United
States Supreme Court in Sharp v. Murphy, 591 U.S.
___, 140 S. Ct. 2412 (2020) for the reasons stated in
McGirt v. Oklahoma, 591 U.S. ___, 140 S. Ct. 2452
(2020).1
Williams’s claim raises two separate questions:
(a) the Indian status of his victim, Christian Shockley,
and (b) whether the crime occurred in Indian Country.
These issues require fact-finding. We therefore
REMAND this case to the District Court of Tulsa

1 On March 25, 2019, we held Williams’s direct appeal in abeyance
pending the resolution of the litigation in Murphy. Following
the decision in McGirt, the State asked for additional time in which
to consider whether to file a timeliness objection to Williams’s
untimely motion to supplement and request for an evidentiary
on his jurisdictional claim. In light of the present order, there is
no need for an additional response from the State at this time
and that request is DENIED.

App.23a
County, for an evidentiary hearing to be held within
sixty (60) days from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Williams’s presentation of
prima facie evidence as to the victim’s legal status as
an Indian and as to the location of the crime in
Indian Country, the burden shifts to the State to prove
it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, his victim, Christian Shockley’s, status as
an Indian. The District Court must determine whether
(1) Christian Shockley has some Indian blood, and
(2) was recognized as an Indian by a tribe or the federal government.2
Second, whether the crime occurred within the
boundaries of the Creek Reservation. In making this
determination the District Court should consider any
2 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
See generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114,
116.

App.24a
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings
of fact and conclusions of law, and any other materials
made a part of the record, to the Clerk of this Court,
and counsel for Williams, within five (5) days after
the District Court has filed its findings of fact and
conclusions of law. Upon receipt thereof, the Clerk of
this Court shall promptly deliver a copy of that record
to the Attorney General. A supplemental brief, addressing only those issues pertinent to the evidentiary
hearing and limited to twenty (20) pages in length,
may be filed by either party within twenty (20) days
after the District Court’s written findings of fact and
conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Tulsa County:
Appellant’s Supplemental Brief filed September 27,
2017; Appellee’s Answer Brief filed on December 22,
2017; Appellant’s Reply Brief filed on January 8, 2018;
and Appellant’s Motion to Supplement the Record on

App.25a
Appeal and for Evidentiary Hearing on Claim of Lack
of Jurisdiction or Evidentiary Hearing on Sixth Amendment Claim filed on July 14, 2020.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

